Declaration of Service
Undersigned declares as follows:
On February 16, 2021 I served the parties in the case by depositing in the mail postage
prepaid a copy of the Petition for a Writ of Certiorari to the United States Supreme Court
addressed to the following:
Jeremy F. Wood
Douglas Edward Smith
Littler Mendelson
One Union Square
600 University Street, Suite 3200
Seattle, WA. 98101-3122
Phone 206-623-3300
Jonathan Pitel
Suzanne M. LiaBraaten
PO Box 40126
Olympia, WA. 98504-0126
Phone 360-586-6311
Karen Unger
332 E 5th St #100,
Port Angeles, WA 98362
Phone 360-452-7688
I declare under the penalty of perjury of the United States of America that the foregoing is true and
correct.
„
s* )
Dated this 16th day of February, 2021

:
/S John Scannell
John Scannell

34

